                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAC
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

Case Number: I07050013                                                                         Page 1 of 1


                  OIG received a complaint that an office in NSF' had been investigatinga suspected violation
          of the Antideficiency ~ cwitht regard
                                          ~     to an NSF-managed appropriation: and that the investigating
          office had searched e-mail records as part of its investigation.

                  OIG determined that NSF policy calls for suspected violations of the Antideficiency Act to be
          referred through the Division of Financial Management to OIG for investigation, and accordingly
          undertook to determine whether a non-OIG investigation was actually being conducted, and to
          investigate any antideficiency situation that might exist.

                    OIG found that NSF had been processing a proposed settlement of a contract claim in an
          NSF-managed contract4that, if determined to be a just legal obligation, could potentially exceed the
          unobligated funds available in the applicable appropriation. The claim grew out of a series of
          interactions between the contractor5and government personnel in FY 2006 that allegedly led to FY
          2006 worMcharges under the contract that were not formally identified as obligations or presented in
          understandable form until FY 2007. Although the contractorbore substantial responsibility for the
          state of affairs that led to these delays and the contract claim, NSF personnel misinterpreted a
          financial document and missed an opportunityto properlyresolve the matter in N 2006. During FY
          2007 NSF located FY 2006 obligations in other contracts funded by the same appropriation that were
          not l l l y consumed by expenditures and that could be partially deobligated, thus fieeing enough of
          the appropriation to accommodate the new obligation represented by the contract claim settlement
          without violating the Act. NSF accordingly deobligated the necessary funds and approved and paid
          the contract claim settlement. Under all the circumstances, OIG found no violation of the Act.

                  OIG further found that the NSF office that had allegedly been investigating the matter had
          instead been carrying out its legitimate administrative role with respect to the contract claim, and
          found no evidence of searches of e-mail.

                 While conducting its investigation, OIG identified various shortcomings in NSF contract
          management, contracting officer technical representative training, and procedures for managing
          suspected violations of the Act, and made recommendations to NSF for improvements. NSF has
          accepted the recommendations and agreed to review and strengthen its procedures, as appropriate.

                     Accordingly, this case is closed.




NSF OIG Form 2 ( I 1/02)
